January 31, 2000

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SYLVESTER S. BLACK
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:	 Commercial Air Carrier Performance: Performance Measurement System
          (Report Number TR-AR-00-003)

This is the first of three reports that presents the results of our audit of commercial air
carrier performance. Our audit disclosed that the performance measurement system
does not provide the Postal Service and commercial air carriers with the type of
information needed for performance improvements. Also, mail volumes measured are
not representative of overall air carrier performance and data supporting performance
measurement is inaccurate. We recommended that the use of the current performance
measurement system be suspended, and either redesign the performance
measurement or explore other alternatives for improving air carrier performance.

Management agreed with the report findings and recommendations. Based on our
report and a series of issues the Postal Service has been working on, the Postal
Service will suspend use of the present performance measurement system on
February 26, 2000. They will also explore other options for improving air carrier
performance. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have questions or need additional information, please contact     , director,
Transportation, at     , or me at (703) 248-2300.


Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment
cc: Clarence E. Lewis, Jr.
    John E. Potter
    Tony M. Pajunas
    John R. Gunnels
Commercial Air Carrier Performance:                                     TR-AR-00-003
 Performance Measurement System


                                  TABLE OF CONTENTS
Part I


Executive Summary
                                                         i


Part II


Introduction
   Background                                                              	1
   Objectives, Scope, and Methodology	                                     2

   Prior Audit Coverage	                                                   3



Audit Results 

   Performance Measurement Design                                          4



   Representative Scores                                                   6

          Mail Classes Measured                                            6

          Volume Scanned                                                   7



   Accuracy of Data                                                       10 

          Delivery Times                                                  10

          Scan Rates                                                      11 



   Recommendations                                                        12 

   Management’s Comments                                                  12 

   Evaluation of Management’s Comments                                    12 



Appendix A.	 Air Carrier Performance Measurement Scan Rates for First     13 

             Three Quarters of Fiscal Year 1999

Appendix B.	 Management’s Comments                                        16 





                                      Restricted Information
Commercial Air Carrier Performance:                                                                   TR-AR-00-003
 Performance Measurement System


                                       EXECUTIVE SUMMARY
Introduction 	                    This is the first of three reports resulting from our audit of
                                  commercial air carrier performance.1 The chief operating
                                  officer requested that we review air carrier performance
                                  because carriers have not been meeting expected on-time
                                  delivery targets established by the Postal Service’s Air
                                  Systems contract. In fiscal year (FY) 1999, the national
                                  average score for on-time performance was 60 percent, as
                                  reported by the Postal Service.

                                  This report presents our assessment of the reliability of the
                                  performance measurement system used to evaluate air
                                  carrier performance. Specifically, it addresses whether (1)
                                  the performance measurement system provides the Postal
                                  Service and air carriers with the type of information needed
                                  for performance improvements, (2) performance scores are
                                  representative of air carrier performance, and (3) data
                                  supporting performance measurement is accurate.

Results in Brief	                 The performance measurement system does not provide
                                  the Postal Service and commercial air carriers with the type
                                  of information needed for performance improvements.
                                  Although the system scores on-time delivery, it does not
                                  identify the causes for late mail arrival or measure all
                                  activities that impact air carrier performance. As a result,
                                  the Postal Service and air carriers cannot take corrective
                                  action, and air carriers may receive low scores for delays
                                  outside of their control. Further, because the system
                                  measures only mail that successfully arrives at its
                                  destination on its intended day of arrival, it does not
                                  consider late mail that is rolled over to the next day for
                                  delivery. The exclusion of this mail may cause carriers to
                                  receive more favorable performance scores, although mail
                                  has missed its intended flight.

                                  Because the performance measurement system tests only
                                  Priority Mail, which comprises less than 34 percent of total
                                  mail volumes commercially flown, performance scores are
                                  not representative of overall air carrier performance.
                                  Further, the volume of Priority Mail tested is insufficient
                                  because scan rates are below minimum levels established
                                  for statistical reliability at some sites. Low scan rates are
                                  attributable to inadequate equipment and staff assigned to

1
 The second report will address the effectiveness of the Air Systems contract in improving air carrier performance
and the third report will address ground handling services performed by postal employees.

                                                         i
                                              Restricted Information
Commercial Air Carrier Performance:                                              TR-AR-00-003
 Performance Measurement System


                              scanning operations, and direct routing of mail to Priority
                              Mail processing centers that bypass scanning sites. As a
                              result, air carriers and postal managers lack confidence the
                              performance measurement system reliably assesses air
                              carrier performance.

                              Our review also disclosed that data supporting performance
                              measurement is inaccurate. Specifically (1) employees
                              responsible for scanning operations did not always reset
                              clocks to capture actual delivery times, and (2) scan rates
                              for testing on-time delivery were inaccurate due to a
                              reliance on historical versus actual mail volumes and the
                              inclusion of air contract tagged mail. Without accurate data
                              the Postal Service cannot hold carriers accountable for their
                              performance or initiate corrective actions needed to improve
                              on-time delivery.

Summary of 	                  We recommend the chief operating officer suspend use of
Recommendations 	             the current performance measurement system, and either
                              redesign performance measurement or explore other
                              alternatives for improving air carrier performance.


Summary of                    Management agreed with our findings and
Management’s                  recommendations. Based on our report and a series of
Comments                      issues the Postal Service has been working on, the current
                              performance measurement system will be suspended on
                              February 26, 2000. Management also agreed to explore
                              other options for improving air carrier performance.
                              Management’s comments are included in their entirety in
                              Appendix B of this report.

Evaluation of                 Management’s comments are responsive to our findings
Management’s                  and recommendations, and planned actions should identify
Comments                      a more effective alternative for improving air carrier
                              performance.




                                                 ii
                                       Restricted Information
Commercial Air Carrier Performance:                                                    TR-AR-00-003
 Performance Measurement System


                                       INTRODUCTION
Background 	                  In FY 1999 the Postal Service spent over $670 million under
                              its Air Systems contract with air carriers to move more than
                              2.1 billion pounds of Priority Mail and First-Class Mail.
                              Although the Air Systems contract established a 98 percent
                              on-time delivery target, air carrier performance averaged 60
                              percent in FY 1999, as reported by the Postal Service.
                              Because air carrier performance directly impacts on-time
                              delivery, air carrier delays can hinder the Postal Service’s
                              ability to achieve service commitments for these classes of
                              mail.

                              In 1994 the Postal Service developed a performance
                              measurement system to identify and track mail from the
                              time it is scanned by the Postal Service at the origin
                              processing facility until it is delivered by the air carrier to the
                              destination airport mail center/facility. The purpose of the
                              system is to assess air carrier performance in achieving on-
                              time delivery goals and provide information required for
                              corrective action. However, both the Postal Service and air
                              carriers have expressed concern about the system’s ability
                              to accurately measure performance.

                              To assess air carrier performance, mail is tested for on-time
                              delivery at 79 centers/facilities that receive the largest
                              volumes of incoming Priority Mail and First-Class Mail.
                              Currently the system tests only Priority Mail pieces based
                              on random sampling. Tracking selected pieces of mail is
                              accomplished by using the Scan-Where-You-Band system.
                              This system, used at the origin facility, scans a barcoded
                              distribution label, and produces a dispatch and routing tag.
                              At the destination airport mail center/facility, hand-held or
                              fixed scanners are used to read the tags of inbound test
                              pieces to determine if the mail was delivered to the Postal
                              Service by the scheduled delivery time.

                              Performance scores are generated from the scanned data
                              and used to establish air carrier rankings. These rankings
                              allow the Postal Service to group airlines in specific
                              origin/destination market pairs based on delivery
                              performance. Quarterly performance rankings are used to
                              shift mail volumes tendered to air carriers in higher
                              performance groups. The air carrier with the highest score
                              for a particular market is the preferred carrier for that market
                              pair.


                                                  1
                                        Restricted Information
Commercial Air Carrier Performance:                                                               TR-AR-00-003
 Performance Measurement System


Objective, Scope, and               The objective of our audit was to assess the reliability of the
Methodology                         system used to measure air carrier performance. To
                                    accomplish this objective, we determined whether (1) the
                                    performance measurement system provides the Postal
                                    Service and air carriers with the type of information needed
                                    for delivery improvements, (2) performance scores are
                                    representative of air carrier performance, and (3) data
                                    supporting performance measurement is accurate.

                                    To determine whether the system provides the Postal
                                    Service and air carriers with the type of information needed
                                    for performance improvements, we reviewed the Postal
                                    Service’s Performance Measurement Handbook, and its
                                    sampling methodology and procedures for testing mail
                                    pieces. We also interviewed postal logistics staff in
                                    headquarters responsible for managing the system,
                                    performance measurement coordinators and specialists in
                                    the field, and the statistician who developed the
                                    performance measurement sampling and test procedures.

                                    To determine whether performance scores are
                                    representative of air carrier performance and supporting
                                    data is accurate, we visited the following ten airport mail
                                    centers/facilities that had the largest volume of scanned
                                    Priority Mail during the first three quarters of FY 1999:2

                                                                          Average Volume of
                                    Site                                    Scanned Mail

                                    Boston                                      107,533
                                    Honolulu                                     67,609
                                    Chicago                                      58,243
                                    Philadelphia                                 54,371
                                    Dallas                                       53,386
                                    Orlando                                      51,161
                                    Kansas City                                  39,979
                                    Baltimore                                    37,857
                                    Milwaukee                                    37,290
                                    New York LaGuardia                           36,261

                                    At these sites we observed scanning operations, reviewed
                                    tender and delivery procedures, and interviewed postal
                                    distribution network office managers, performance
                                    measurement coordinators, plant mangers, and network
                                    specialists. We also reviewed National Traffic Management
2
    The first three quarters of FY 1999 covers the period, September 12, 1998, to May 21, 1999.

                                                           2
                                                Restricted Information
Commercial Air Carrier Performance:                                                                TR-AR-00-003
 Performance Measurement System


                                 System reports, local databases and spreadsheets, and
                                 other relevant documents. We reviewed policies and
                                 procedures, the Air Systems contract, headquarters
                                 directives, and met with the appropriate headquarters
                                 officials. We also interviewed representatives of six major
                                 commercial air carriers3 to obtain their insight regarding the
                                 performance measurement system.

                                 This audit was conducted from May 1999 through
                                 December 1999 in accordance with generally accepted
                                 government auditing standards and included tests of
                                 internal controls as were considered necessary under the
                                 circumstances. We discussed our findings with appropriate
                                 management officials and included their comments, where
                                 appropriate.

Prior Audit Coverage 	 One Postal Service and two Postal Inspection Service
                       reports4 issued during the last five years addressed several
                       areas where management needed to strengthen the
                       performance measurement system. These included
                       identifying the causes of air transportation delays, and
                       consistently applying scanning procedures. Management
                       agreed with these findings, but had not implemented the
                       Inspection Service recommendation to include First-Class
                       Mail in performance measurement.




3
 We interviewed representatives from American, Continental, Northwest, Transworld, USAir, and United airlines.
4                 st
 Developing a 21 Century Air Transportation Strategy for the Postal Service, (March 17, 1999); National
Coordination Audit: Air Transportation Network, Case Number 023-1209811-PA(1), (May 1998); and National
Review of Airport Mail Centers, Case Number 024-1165776-PA(1), (November 1995).

                                                        3
                                             Restricted Information
Commercial Air Carrier Performance:                                                                   TR-AR-00-003
 Performance Measurement System


                                            AUDIT RESULTS
Performance 	        The performance measurement system does not provide
Measurement Design 	 the Postal Service and commercial air carriers with the type
                     of information needed for corrective action. Although the
                     system scores on-time delivery, it does not identify the
                     causes for late mail arrival or measure all activities that
                     impact air carrier performance. For example, the system
                     does not identify whether delays are due to the Postal
                     Service over-assigning mail to flights or tendering the mail
                     late, or to carriers not loading mail onto designated flights.
                     As a result, the Postal Service and air carriers cannot take
                     corrective action, and air carriers may receive low scores
                     for delays that are not always within their control.

                                  Further, because the performance measurement system
                                  measures only mail that successfully arrives at its
                                  destination on its intended day of arrival, it does not
                                  consider late mail that is rolled over to the next day for
                                  delivery. As a result, air carriers may receive more
                                  favorable performance scores, although mail has missed
                                  its intended flight and is delivered the following day.

                                  These issues were first identified in a March 1999 study
                                  conducted by a consulting firm under contract with the
                                  Postal Service.5 This study concluded that the performance
                                  measurement system did not identify the causes of air
                                  transportation delays, making it impossible to determine
                                  what or who is at fault and how deficiencies can be
                                  corrected. The study further noted that due to these
                                  problems, the Postal Service and air carriers lacked
                                  confidence that the system provided information required
                                  for improving performance.

                                  Further, a 1998 Baldridge study6 of postal operations
                                  concluded the Postal Service needed to address the on-
                                  time performance of air carriers through process
                                  management.7 In response to this report, the Postal
                                  Service is implementing process management to improve
                                  operations. However, because the performance




5                st
  Developing a 21 Century Air Transportation Strategy for the Postal Service, (March 17, 1999). 

6
  Assessing USPS’ Management System - Feedback Report, (May 27, 1998). 

7
  Process management is the documentation of an organization’s core processes and that of its suppliers in an effort 

to better manage and improve performance. 


                                                         4
                                              Restricted Information
Commercial Air Carrier Performance:                                               TR-AR-00-003
 Performance Measurement System



                              measurement system for air carriers does not provide the
                              information needed for process management, the Postal
                              Service will need to identify and measure all aspects of
                              carrier performance to improve air carrier contributions to
                              Postal Service performance goals.




                                                 5
                                       Restricted Information
Commercial Air Carrier Performance:                                                              TR-AR-00-003
 Performance Measurement System



Representative	                 Because the performance measurement system tests only
Scores 	                        Priority Mail, which comprises less than 34 percent of total
                                mail volumes commercially flown, performance scores are
                                not representative of overall air carrier performance.
                                Further, the volume of Priority Mail tested is insufficient
                                because scan rates are below minimum levels established
                                for statistical reliability at some sites.

Mail Classes                    Although commercial air carriers transport primarily Priority
Measured                        Mail and First-Class Mail, only Priority Mail is measured.
                                Priority Mail comprises only 34 percent of all mail
                                commercially flown. Postal officials stated First-Class Mail,
                                which accounts for 55 percent of mail transported by
                                commercial air carriers, is not tracked under performance
                                measurement because it is not a competitive product.
                                However, managers at eight8 of the ten sites we visited
                                believed including First-Class Mail in performance
                                measurement would provide a more representative
                                assessment of air carrier performance.

                                In a May 1998 report on the Postal Service’s air
                                transportation network,9 the Postal Inspection Service
                                recommended the performance measurement system be
                                enhanced to include tests of First-Class Mail. The Postal
                                Service agreed with the findings, but stated the lack of
                                equipment and additional man-hours required for testing
                                First-Class Mail were barriers to implementing the
                                Inspection Service’s recommendation. The Postal Service
                                agreed to address these barriers and expected to mandate
                                scanning of First-Class Mail by February 1999. The Postal
                                Service had not implemented this recommendation at the
                                time of our review; however, officials are exploring software
                                and hardware changes needed for the enhancement.

                                Although the Postal Service’s reasons for restricting
                                performance measurement to Priority Mail may have been
                                appropriate at the time, air carrier performance directly
                                impacts the delivery of First-Class Mail, which comprises
                                59 percent of postal revenues. With expected diversion of
                                First-Class Mail volumes to the Internet and electronic
                                alternatives, further losses due to poor performance may
                                significantly impact Postal Service revenues. For this
8
  Managers at the Baltimore, Boston, Chicago, Dallas, Kansas City, Milwaukee, New York La Guardia and Orlando
Airport Mail Centers/Facilities believed that including First-Class Mail would provide a more representative
assessment of air carrier performance.
9
  National Coordination Audit: Air Transportation Network, Case Number 023-1209811-PA(1), (May 1998).

                                                      6
                                            Restricted Information
Commercial Air Carrier Performance:                                                               TR-AR-00-003
 Performance Measurement System


                                 reason, the Postal Service must measure air carrier
                                 performance to improve the delivery of First-Class Mail.

Volume Scanned                   For performance measurement, the Postal Service requires
                                 test sites scan a minimum of 67 percent of incoming mail.
                                 Despite this requirement, scan rates at 17 of 79 sites were
                                 consistently below this level during the first three quarters
                                 of FY 1999.10 Of the 17 sites that had low scan rates:

                                 •	 Five did not scan at all.
                                 •	 Three never reached the 67 percent level.
                                 •	 Nine achieved the 67 percent scan rate less than 25
                                    percent of the time.

                                 Scan rates reported for the 79 sites are provided in
                                 Appendix A.

                                 Postal Service officials attributed low scan rates to
                                 inadequate equipment and staff assigned to scanning
                                 operations, direct routing of mail to Priority Mail Processing
                                 Centers that bypass scanning locations, and use of air
                                 contract tags that cannot be scanned. These causes were
                                 also confirmed by our review. Three sites11 were excluded
                                 from performance measurement because they lacked
                                 adequate equipment for scanning high mail volumes. Site
                                 visits disclosed four12 of ten locations relied on hand-held
                                 scanners that could not scan all of the mail, and at another
                                 site13 two of four fixed scanners were inoperable. Further,
                                 inefficient induction systems at three14 sites limited the
                                 number of mail pieces that postal employees could scan.




10
   The first three quarters of FY 1999 covered the period, September 12, 1998, to May 21, 1999.
11
   Sites excluded from performance measurement included Santa Ana, Los Angeles, and Atlanta.
12
   Chicago, Honolulu, Philadelphia, and Orlando used hand-held scanners exclusively.
13
   Two fixed scanners at Boston were inoperable.
14
   Honolulu, Philadelphia, and Orlando had inefficient induction systems.

                                                        7
                                             Restricted Information
Commercial Air Carrier Performance:                                                                  TR-AR-00-003
 Performance Measurement System



                                 As shown below, mail was piled three to four pieces high
                                 on the induction belt at one location,15 making it impossible
                                 to scan all applicable pieces.




                                 The number of employees assigned to scanning operations
                                 at the ten sites was also inconsistent. For example, three
                                 people scanned mail at the site16 with the second highest
                                 Priority Mail volume, while 15 people scanned mail at the
                                 site17 with the third highest volume. Another facility18
                                 assigned an employee to scan Priority Mail at one location,
                                 although carriers unloaded mail at two locations in the
15
   Mail was stacked on induction belts at the Honolulu Airport Mail Center.
16
   Three employees were assigned to scanning operations at the Honolulu Airport Mail Center.
17
   Fifteen employees were assigned to scanning operations at the Chicago Airport Mail Center.
18
   At the Orlando Airport Mail Center, one person scanned mail, although mail was unloaded at two different
locations.

                                                         8
                                              Restricted Information
Commercial Air Carrier Performance:                                                     TR-AR-00-003
 Performance Measurement System


                                    facility. When multiple carriers arrived at the same time,
                                    the employee could not scan all pieces of mail. Site
                                    managers told us scanning operations were significantly
                                    impacted by the level of funding the area offices were
                                    willing to commit to performance measurement.
                                    Additionally, employees were not properly trained to use
                                    the scanning equipment.

                                    Our review also disclosed Air Systems contract mail
                                    transported by a contractor at two sites19 bypassed
                                    scanning operations. For example, the Northeast Area
                                    Distribution Network Office manager stated Priority Mail
                                    was transported directly to the Nashua Priority Mail
                                    Processing Center, bypassing scanning operations at the
                                    airport mail center. When mail pieces are not available to
                                    be scanned, site scan rates are distorted.

                                    If air carriers are to be held accountable for their
                                    performance, they must possess confidence in the integrity
                                    of the Postal Service’s performance measurement system.
                                    However, the six air carriers interviewed expressed a lack
                                    of confidence in the system. Specifically, they believed the
                                    scan rates were inaccurate, and therefore did not
                                    adequately represent their performance. Similarly, postal
                                    managers must also have confidence in the system if they
                                    are to commit the resources needed for performance
                                    measurement to be effective. However, managers
                                    interviewed at three20 locations indicated that no matter
                                    how many resources they committed to scanning
                                    operations, their scan rates would not improve to the level
                                    needed for the system to be reliable.




19
     Contractor mail bypassed the Boston and Milwaukee Airport Mail Centers.
20
     Boston, Dallas, and Honolulu managers did not believe scan rates were reliable.

                                                           9
                                                Restricted Information
Commercial Air Carrier Performance:                                                                   TR-AR-00-003
 Performance Measurement System



Accuracy of Data	                 Data supporting air carrier performance is inaccurate
                                  because (1) employees responsible for scanning
                                  operations did not always reset clocks to capture actual
                                  delivery times, and (2) scan rates for testing on-time
                                  delivery were inaccurate due to reliance on historical
                                  versus actual mail volumes and inclusion of air contract
                                  tagged mail. Without accurate data the Postal Service
                                  cannot hold carriers accountable for their performance or
                                  initiate corrective actions needed to improve on-time
                                  delivery.

Delivery Times 	                  Establishing mail delivery times is critical to measuring air
                                  carrier performance. Because five21 of the ten sites visited
                                  did not always scan incoming mail at the time of delivery,
                                  lag times of 20 minutes to 4 hours occurred between
                                  tender of the mail to the Postal Service and scanning for
                                  performance measurement. Because such delays can
                                  significantly impact the accuracy of on-time measurement,
                                  resetting scanner clocks is critical to reliable performance
                                  measurement.

                                  At four22 of the ten sites visited, Postal Service employees
                                  did not appropriately reset clocks to reflect actual delivery
                                  times. Generally, this practice resulted in the reporting of
                                  delivery times that were one to four hours later than actual
                                  delivery. At one23 of the five sites, postal employees
                                  changed the clocks, every hour on the hour, which
                                  consistently distorted delivery times. Facility managers
                                  indicated clocks were not changed because employees
                                  either did not know how to or did not remember to reset the
                                  clocks. Managers also believed the manual resetting of
                                  scanner clocks was inefficient.

                                  Recognizing that facilities were not always capturing actual
                                  delivery times when scanning the mail, headquarters
                                  issued a directive to performance measurement
                                  coordinators reinforcing the need to correctly set scanner
                                  clocks. Despite this directive, field sites we visited had not
                                  taken action to address this issue.



21
   Boston, Chicago, Dallas/Fort Worth, Honolulu and Philadelphia Airport Mail Centers/Facilities did not always scan 

incoming mail at the time of delivery.

22
   Employees at the Boston, Dallas/Forth Worth, and Honolulu and Kansas City Airport Mail Centers/Facilities did not 

appropriately reset scanner clocks. 

23
   Employees at the Kansas City Airport Mail Center reset scanner clocks every hour on the hour. 


                                                         10
                                              Restricted Information
Commercial Air Carrier Performance:                                                                   TR-AR-00-003
 Performance Measurement System



Scan Rates 	                      Our review disclosed performance measurement scan
                                  rates were not accurate. Because scan rates are derived
                                  from historical incoming mail volumes, to the extent
                                  average historical volumes differ from actual arrival
                                  volumes, scan rates may be misrepresented. As a result,
                                  seasonal peaks and monthly variations in mail volumes
                                  significantly distort scan rates. For example, a manager at
                                  one location24 reported scanning mail in excess of
                                  expected arrival volumes at various times during FY 1999.
                                  Also postal managers at two locations25 reported scan
                                  rates less than 100 percent even though every piece of
                                  mail had been scanned. As a result, mail pieces sampled
                                  are not always representative of arriving mail volumes on
                                  test days.

                                  Further, as many as five carts of mail with air contract tags
                                  were scanned at one location,26 although they were not
                                  counted in expected incoming mail volumes contributing to
                                  scan rates. Although air contract tags can be scanned,
                                  they are not machine-readable. The manager of the
                                  performance measurement system told us all mail should
                                  be assigned dispatch and routing tags so they can be
                                  scanned for performance measurement. The mail with air
                                  contract tags primarily came from major mailers who did
                                  not have the equipment necessary to create dispatch and
                                  routing tags.

                                  Because performance rankings are dependent upon the
                                  volume of incoming mail scanned, it is important that scan
                                  rates be accurately reported. For example, a scan rate
                                  below 67 percent automatically places a carrier in the top
                                  performance ranking for the market pair because a true
                                  ranking cannot be determined. This can result in the
                                  shifting of mail volumes to poor performing carriers.




24
   Dallas Airport Mail Center scanned mail in excess of expected arrival volumes.
25
   The Boston and Honolulu Airport Mail Centers/Facilities scanned every peace of mail, but reported scan rates of 

less than 100 percent.

26
   Air contract tags at the Milwaukee Airport Mail Center could not be scanned. 


                                                         11
                                              Restricted Information
Commercial Air Carrier Performance:                                              TR-AR-00-003
 Performance Measurement System


Recommendations               Because the performance measurement system does not
                              provide the type of information needed to improve air
                              carrier delivery, performance scores are not representative
                              of air carrier performance, and supporting data is
                              inaccurate, we recommend the chief operating officer:

                              1. Suspend use of the current system.

Management’s                  Management agreed with our recommendation and
Comments                      indicated the current performance measurement system
                              will be suspended, effective February 26, 2000.

                             2. Either redesign performance measurement to assess all
                                activities impacting air carrier performance, or explore
                                other alternatives for improving delivery performance.

                             Management stated they would explore other options to
                             improve air carrier performance.

Evaluation of                Management’s comments are responsive to our findings
Management’s                 and recommendations. Their plans to suspend the
Comments                     performance measurement system and explore other
                             options should lead to a more effective alternative for
                             improving air carrier performance.




                                                 12
                                       Restricted Information
Commercial Air Carrier Performance:                                                                      TR-AR-00-003
 Performance Measurement System


                                                  APPENDIX A.

                              Air Carrier Performance Measurement

                         Scan Rates for the First Three Quarters of FY 1999 


            Area                                             Site                                   Scan Rates
                                                                                                    For FY9927

ALLEGHENY                       Cleveland, Ohio                                                              86%
                                Columbus, Ohio                                                               52%
                                Cincinnati, Ohio                                                             81%
                                Dayton, Ohio                                                                 71%
                                Harrisburg International Airport., Pennsylvania                               0%
                                Philadelphia, Pennsylvania                                                   41%
                                Pittsburgh, Pennsylvania                                                     48%

CAPITAL METRO 	                 Baltimore, Maryland                                                          78%
                                Washington National, District of Columbia                                    89%
                                Dulles International, District of Columbia                                   56%

GREAT LAKES 	                   Metro Wayne County, Michigan                                                 53%
                                Grand Rapids, Michigan                                                       87%
                                Indianapolis, Indiana                                                        97%
                                O'hare International, Illinois                                               72%

MIDATLANTIC 	                   Columbia, South Carolina                                                     75%
                                Charlotte, North Carolina                                                    86%
                                Greensboro/High Point/Winston-Salem, North                                   71%
                                Carolina
                                Norfolk/Virginia Beach/Williamsburg, Virginia                                86%
                                Raleigh/Durham, North Carolina                                               79%
                                Richmond/Williamsburg, Virginia                                              87%
                                Louisville, Kentucky                                                         84%

MIDWEST	                        Des Moines, Iowa                                                             88%
                                Wichita, Kansas                                                              74%
                                International, Missouri                                                      95%
                                Milwaukee, Wisconsin                                                         81%
                                Minneapolis/St. Paul, Minnesota                                              54%
                                Omaha, Nebraska                                                              94%
                                St. Louis, Missouri                                                          76%




27 1
       Average weekly scan rates for the first three quarters of FY 1999 (accounting periods 1 through 9).

                                                             13
                                                 Restricted Information
Commercial Air Carrier Performance:                                       TR-AR-00-003
 Performance Measurement System



NORTHEAST                       Albany, New York                           0%
                                Bradley International, Connecticut        55%
                                Boston, Massachusetts                     66%
                                Buffalo, New York                         78%
                                Providence, Rhode Island                   0%
                                Portland, Maine                            0%
                                Rochester, New York                       56%
                                Syracuse, New York                        81%

NY METRO                        Newark International, New Jersey          36%
                                Kennedy International, New York           36%
                                New York La Guardia Airport, New York     59%
                                San Juan, Puerto Rico                     63%

PACIFIC                         Honolulu, Oahu, Hawaii                    69%
                                Los Angeles, California                   31%
                                Oakland, California                       77%
                                Ontario, California                       54%
                                San Diego, California                     97%
                                San Francisco, California                 50%
                                Sacramento International, California      90%
                                Orange County, California                  0%

SOUTHEAST                       Atlanta, Georgia                          N/A28
                                Birmingham, Alabama                        75%
                                Nashville, Tennessee                       47%
                                Ft. Lauderdale, Florida                    22%
                                Jackson, Mississippi                       75%
                                Jacksonville, Florida                      68%
                                Orlando International, Florida             66%
                                Memphis, Tennessee                         60%
                                Miami, Florida                             39%
                                West Palm Beach, Florida                   84%
                                Tampa/St. Petersburg, Florida              86%
                                Knoxville, Tennessee                       43%

SOUTHWEST                       Dallas/Fort Worth, Texas                  73%
                                Intercontinental, Texas                    N/A
                                Little Rock, Arkansas                     74%
                                New Orleans, Louisiana                    72%
                                Oklahoma City, Oklahoma                   90%
                                San Antonio, Texas                        79%
                                Tulsa, Oklahoma                           83%


28
     N/A - Site data was not available for each weekly period.

                                                            14
                                                 Restricted Information
Commercial Air Carrier Performance:                            TR-AR-00-003
 Performance Measurement System




WESTERN                   Albuquerque, New Mexico               82%
                          Anchorage, Alaska                    100%
                          Boise, Idaho                           N/A
                          Denver, Colorado                      31%
                          Spokane, Washington                   88%
                          Las Vegas, Nevada                      N/A
                          Portland, Oregon                      73%
                          Phoenix, Arizona                      75%
                          Reno, Nevada                          78%
                          Seattle/Tacoma, Washington            28%
                          Salt Lake City, Utah                  51%
                          Tucson, Arizona                       61%

                          NATIONAL                              65%




                                                15
                                      Restricted Information
Commercial Air Carrier Performance:                               TR-AR-00-003
 Performance Measurement System


                                          APPENDIX B.
                                      Management’s Comments




                                                   16
                                         Restricted Information
Commercial Air Carrier Performance:                            TR-AR-00-003
 Performance Measurement System



 Major Contributors to
 This Report




                                                17
                                      Restricted Information
